                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

Case Number: 111080038                                                                 Page 1 of 1



     We received information from a university 1 of financial misconduct by aPe who had used his
     university purchase card to purchase items against several NSF awards and then returned the
     items for gift cards. The university determined that the PI may have potentially embezzled over
     $160,000 3 in NSF award funds and reimbursed NSF for all these improper charges.

     The university referred this matter to a local federal law enforcement agency, 4 which in tum
     referred this case to the local U.S. Attorney's Office. 5 ,The PI subsequently pled guilty to one
     count of Theft of Government Money, a violation of 18 U.S.C. § 641, and was sentenced to two
     years of probation, ordered to pay a fine of$2,500 and a special assessment fee of$25.

     Per our recommendation, NSF had debarred the PI for three years.

     This case is closed.
SENSITIVE                                                                              SENSITIVE




       National Science Foundation
        Office of Inspector General




            Debarment Recommendation
              Case Number 111080038



                        This Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S. C. § 552a This report may be further
 disclosed within NSF only to individuals who must have knowledge of its· contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Form 22b (1/13)
SENSITIVE                                                                           SENSITNE


                                   Executive Summary


Allegation:          OIG initiated an investigation based on information that the Subject
                     misappropriated NSF grant funds. The Subject facilitated a fraud scheme
                     whereby he purchased items using his University purchase card, charged
                     these items to NSF grants, then returned some of the items purchased and
                     received refunds via gift cards, which he obtained and used for his
                     personal enrichment.

                                                                            --_.-:~-... ~:~-).:_~-
Subject:                                   professor at ~ - . -      -_-"'_

                                            ho served as the Principal Inyestigator on various
                     NSF awards.

OIG Investigation: In August 2011, -            notified NSF OIG of fmancial misconduct by
                     the Subject via the use of his University purchase card. The University
                     ultimately determined that the Subject used a refund scheme and
                     committed fraud with his University purchase card and embezzled at least
                     $2,893.73 in NSF grant funds. The University noted that he may have
                     potentially obtained nearly $8,500 from other fraudulent purchase card
                     transactions charged to NSF grants, and possibly benefited and obtained
                     almost $150,000 more through other improper charges. made to NSF
                     grants.

University Action:   The University's internal audits determined the Subject had embezzled
                     funds from NSF grants. He resigned from the University on July 31, 2011
                     as a result of his financial misconduct. The University referred this case to
                     the local U.S. Secret Service (USSS) office before NSF OIG was apprised
                     ofthe matter.

Prosecution:         The U.S. Secret Service referred this matter to an Assistant United States
                     Attorney (AUSA) for the                                who accepted this
                     matter for criminal prosecution. The Subject pled guilty to one count of
                     18 U.S.C § 641, Theft of Goveounent Money. He was sentenced to two
                     years probation, ordered to pay a fine of $2,500 and a special assessment
                     fee of$25.
OIG
Assessment:          The Subject knowingly and repeatedly embezzled NSF grant funds via a
                     fraudulent refund scheme involving the use of his University purchase
                     card.

OIG
Recommendation:      Pursuant to 2 C.F.R. ·§ 180 et. seq., and based upon the facts described
                     herein, OIG recommends that NSF debar the Subject for 3 years and
                     prohibit the Subject from serving as an NSF merit reviewer, advisor or
                     consultant for 3 years from the final disposition of this case.



                                               1
SENSITIVE                                                                                        SENSITIVE




    I.       OIG INVESTIGATION

             A. Factual Background

The Subject, 1 a professor at a Universit;?, was a Principal Investigator (PI) on 8 NSF grants 3
while employed with the University from May 1, 2002 up to July 31, 2011, when he resigned.
The Subject, as the PI on NSF grants, was responsible for conducting and overseeing federally
funded research. Under the applicable University policy, the Subject was responsible for
managing the grants, and was to follow University policy and procedures when purchasing items
and procuring services under his grants.

In August 2011, NSF OIG received information that the Subject embezzled NSF grants funds; he
had committed fraud through a refund scheme using his University purchase card. The
University referred this matter to the local U.S. Secret Service Office (USSS), which in turn
referred this case to the U.S. Attorney's Office in the                                 . He
subsequently pled guilty to one count of Theft of Government Money, a violation of 18 U.S.C. §
641, and was sentenced to two years probation, ordered to pay a fine of $2,500 and a special
assessment fee of $25.

The University determined that the Subject purchased items at various local stores using his
University purchase card and charged these expenditures to NSF grants. The purchases appeared
to be appropriate and allowable expenses for the grants and did not raise any suspicion.
However, the Subject then returned various items back to the stores and requested refunds
through gift cards rather than obtaining credit back to the University purchase card. The gift
cards were then used by the Subject, and an accomplice, to purchase personal items. The
University determined that, between April 19, 2011 and May 4, 2011, the Subject committed
fraud via this purchase card refund scheme and embezzled NSF grant funds totaling at least
$2,893.73.4 The University noted that the Subject could have potentially received purchase card
refunds totaling over $11,000, for purchase card transactions charged to NSF grants throughout
his employment with the University. Furthermore, the University noted he may have potentially
been enriched by additional improper charges made to NSF grants totaling nearly $150,000.

In total, the University determined that the Subject may have potentially embezzled over
$160,000 in NSF grant funds. The University reimbursed NSF for all the in;lproper charges they
determined he had embezzled through the use of his purchas~ card. They also reimbursed NSF
for all purchase Cffi"d charges on all the NSF awards that he oversaw since his employment with
the University, believing he may have illegally obtained refunds from these other purchase card




3
 See list   NSF grants at TAB 1.
4
 University Audit determined that fromAprill9, 2011 to May 4, 2 0 1 1 · - obtained refunds totaling
$2,893.73 from retail vendors Wal-Mart and Target. These were refunds for purchases charged to NSF grants. (See
• • • Reports at TAB 2).


                                                       2
SENSITIVE                                                                              SENSITIVE


transactions. They also included all charges that he may have personally benefited from, such as
summer salary, fringe benefits, check requests, and mileage reimbursements. 5
    '                                                                .

               B. University's Actions

The University's investigation identified questionable purchase card transactions which were
issued as refunds to the Subject via gift cards, as well as suspect claims for mileage
reimbursement, check requests, and summer salary and fringe benefits. The PI resigued and the
university returned over $160,000 to NSF.

               C. OIG Investigation, Review and Assessment

NSF OIG investigated the allegations and determined from information provided from the
University that the Subject, from approximately Aprill9, 2011 to May 4, 2011, had purchased
items using his University purchase card and charged these costs to NSF grants then improperly
obtained refunds in the form of gift cards totaling at least $2,893.73 for his personal use. The
University believes that he could have potentially obtained a total of over $11,000 in purchase
card refunds and nearly $150,000 through other improper transactions, all of which were charged
to NSF grants.


        II.    DOJ ASSESSMENT/PROSECUTION

In January 2011, the USSS referred the matter to the United States Attorney's Office. 6 The
Criminal Division accepted the matter. The Subject pled guilty to one count of 18 U.S.C. § 641,
Theft of Government Money. He was sentenced to two years probation, ordered to pay a fine of
$2,500 and special assessment of $25. 7

        ill.   DEBARMENT

               A. Grounds for Debarment

NSF has the authority to debar an individual for "Conviction.... for. ... Commission of
embezzlement, theft ...making false statements .... or. ... Commission of any other offense
indicating a lack of business integrity or business honesty that seriously and directly affects (the
person's) present responsibility... " 8 The Subject pled guilty to a violation of ~8 U.S.C. § 641,
Theft of Government Money.

In the instant case, the Subject engaged in a pattern and practice of using public, federal funds
from NSF as if they were his own. Federal awards are made to serve public not private




5
  NSF OIG Chart of NSF Grant Fund Reimbursements from         at TAB 3.
6
  United States Attorney's Office for the                 .
7
  US District Court Records at TAB 4.
8
  2 C.F.R. § 180.800(a)(3)-(4).


                                                  3
SENSITIVE                                                                                               SENSITIVE


purposes. 9 By embezzling NSF award funds the Subject's actions deprived the University and
its students of the full scope of educational opportunities for which the funds were intended. 10

Further, the Subject's misappropriation of funds intended to benefit the public reflects a
fundamental lack of integrity and constitutes such serious and willful violations of regulatory
provisions that it affects the Subject's present responsibility.

              B. Burden of Proof

"In any debarment action, the Federal agency must establish that there is cause for debarment by
a preponderance of the evidence." 11 And, "[i]f the proposed debarment is based upon a
conviction or civil judgment, the standard of proof is met." 12 In this instance, the evidence
indicates that the Subject repeatedly embezzled NSF award funds and the Subject pled guilty to
the theft of federal funds and was convicted.

              C. Relevant Factors

The debarment regulation lists nineteen factors that the debarring official may consider. 13 Listed
below are the factors pertinent to this case.


    1. Actual or Potential Harm or Impact14

The Subject embezzled at least $2,893.73 in NSF grant funds between April19, 2011 and May 4,
2011. He may have improperly obtained a total of over $160,000 through purchase card
transactions and improper charges made to his NSF grants. There is every indication he would
have continued to do so absent an investigation. Because the Subject resigned in July 2011, NSF
permitted the University to continue its work on the awards.                     ·




9
  31 U.S.C § 6304 using grant agreements, provides:
An executive agency shall use a grant agreement as the legal instrument reflecting a relationship between the United
States Government and a State, a local government, or other recipient when-
          1) the pri.lldpal purpose of the relationship is to transfer a thing of value to the State or local government
              or other recipient to carry out a public purpose of support or stimulation authorized by a law of the
              United States. . . .
10
   The National Science Foundation Act, 42 U.S. C. § 1860 et seq provides:
     § 1862. Functions
     (a) Initiation and support of studies and programs; scholarships; current register of scientific and technical
          personnel. The Foundation is authorized and directed-
              ( I) to initiate and support basic scientific research and programs ... by making contracts or other
                   arrar1gements (including grants, loans and other forms of assistance) to support such scientific,
                   engineering, and educational activities . .
11
   2 C.F.R. § 180.850; 2 C.P.R. § 180.855.
12
   2 C.F. R § 180.850(b).
13
   2 C.F.R. § 180.860.
14
   2 C.P.R. § 180.860(a).


                                                           4
SENSITIVE                                                                                SENSITIVE


The harm the Subject caused is not due solely to the monetary value of the funds that he
fraudulently misused; it is also measured in the intangible loss to the government and to the
scientific research and programs the funds were intended to benefit.

Pattern of Wrongdoing 15

During the period at issue, the Subject repeatedly purchased items using his University purchase
card and charged them to the NSF grants then returned items and obtained refunds in the form of
gift cards which he kept for his own personal use. The Subject had a pattern of circumventing
the University's Purchase Card policies in order to illegally obtain money in the form of gift
cards. The Subject repeatedly obtained refunds for purchase card transactions charged to NSF
grants. These charges are directly attributable to the Subjects misconduct and misuse of grant
funds.
                                   16
     2. Role in Wrongdoing

The Subject was solely responsible for knowingly and repeatedly purchasing items using his
purchase card and charging the costs to NSF grants then illegally obtaining refunds for his
personal use.

When questioned by the University Controller and other University officials about some of the
Purchase Card charges the Subject was not forthcoming. 17

The Subject provided University officials with misleading and false information about the true
nature of the numerous Purchase card charges and improper reimbursements/refunds he received
via gift cards.

     3. Acceptance of Responsibility 18

The Subject did eventually accept responsibility for his actions when he pled guilty to one count
of embezzlement (a misdemeanor). He resigned from his position at the University in July 2011
as a result of his financial misconduct.
           .           19
     4. Repayment ·

The Subject reimbursed the University a total of$6,937.86 shortly after his arrest. 20




15
   2 C.P.R. § 180.86D(c).
16
   2 C.P.R. § l80.8&0(f).
17
   See          Audit Reports at TAB 2.
18
   2 C.P.R. § 180.860(g).
19
   2 C.P.R.§ 180.860(h).
20
   Information obtaim.ed from a Sentencing document in the court records.


                                                         5
SENSITIVE                                                                             SENSITIVE


       5. Cooperation ofthe Subject21

Once confronted with the evidence, the Subject cooperated with the federal investigation and
subsequently pled guilty to the theft of government funds.
                                   22
       6. The Subject's Position

The Subject was the Principal Investigator on 8 NSF grants, as well as other federal grants.

       7. Organizational Action23

The University returned all grant funds back to NSF (funds proven to have been embezzled and
funds that the Subject may have potentially improperly or fraudulently obtained.)


       IV. RECOMMENDATION

Although the Subject is no longer employed by the University, his qualifications may result in
future employxnent at another college or university. In such a position, he could apply for future
federal awards. The Subject's wrongdoing ended only after the internal and external
investigative findings against him, and even then ended only because he resigned from the
University as a result of his financial misconduct. The Subject remains capable of continued
involvement as a professor or researcher. Such positions may afford him future control over
federal funds. Therefore we recommend that NSF debar the Subject for three years and prohibit
the Subject from serving as an NSF merit reviewer, advisor, or consultant for three years. Such a
period of time is necessary to ensure federal funds are accessible only to responsible individuals,
particularly in the current climate of great concern over the appropriate use and safeguarding of
federal funds.




21
     2 C.F.R § 180.860(i).
22
     2 C.F.R § l80.860(k).
23
     2 C.F.R § 180.860(1).


                                                 6
                                   NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230



                                                                            .   . .---   -                   ~                ~




                                                                            ~       ••           -       -       "L   -   -       -



                                                                                -        ~   -                   -    --"
                                                                                -                    -           -

     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re: Notice of Proposed Debarment

Dear-

This letter serves as forrilal notice thatthe National Science Foundation ("NSF") is proposing to
debar you from directly or indirectly obtaining the benefits of Federal grants for a period of three ·
years. During your period of debarment, you will be precluded from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and
activities. In addition, you will be prohibited from receiving any Federal contracts or approved
subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly, during your debarment
period, you are barred from having supervisory responsibility, primary management, substantive
control over, or critical influence on, a grant, contract, or cooperative agreement with any agency ·
ofthe Executive Branch of the Federal Government.

Reasonfor Debarment

Your debarment is based upon a referral from NSF's Office of Inspector General ("OIG").
NSF's record demonstrates that you pleaded guilty to a charge of Theft of Government Money.
You were sentenced to: (1) serve two years of probation; (2) pay a $2,500 fme; and (3) pay a
special assessment fee of $25.

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debannent may be imposed for:

(a) Conviction of or civil judgment for-

( 1) Commission of fraud or a criminal offense in connection with obtaining, attempting to obtain,
or performing a public or private agreement or transaction; or
                                                                                  ---.!




***
(3) Conunission of embezzlement, theft, forgery, bribery, falsification or destruction of records,
making false statements, tax evasion, receiving stolen property, making false claims, or
obstruction of justice.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. If, as in this case, the proposed debarment is
based upon a conviction or civil judgment, the standard of proof is met. I d. Therefore, your
conviction for Theft of Government Money supports a cause for debarment under 2 CFR
180.800(a)(l) and (3).

Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Having considered the seriousness of your
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR 180.860, we
are proposing debarment for a period of three years.

Procedures Governing Proposed Debarment

 The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
 decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
 in person, or in vvriting, or though a representative, information and argument in opposition to
 this debarment. 2 CFR 180.820. Please note, however, that because your debarment is based on
.a conviction, you will not have an opportunity to challenge the facts underlying the conviction.
 2 CFR 180.830(a). Comments submitted within the 30-day period will receive full consideration
 and may lead to a revision of the recommended disposition. If NSF does not receive a response
 to this notice within the 30-day period, this debarment will become finaL

Any response should be addressed to                      General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia, 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and F ARSubpart 9.4.


                                                      Sincerely,
                                                                   /
                                                     ~~dUd~-rl----~~/
                                                   c:=-J-  ~.  -
                                                      Fae Korsmo
                                                      Senior Advisor

Enclosures:
Nonprocurement Debarment Regulations
FAR Regulations
                                                                      --!




                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re:    Notice of Debarment

Dear-:

        O n - , the National Science Foundation ("NSF") issued to you a Notice of
Proposed Debarment (''Notice"), in which NSF proposed to debar you from directly or indirectly
obtaining the benefits of Federal grants for a period of three years. As reflected in the Notice,
NSF proposed your debarment because you pled guilty to a charge of felony theft in connection
with your previous employment at                            . Specifically, you embezzled Federal
grant funds for your personal use. In that Notice, NSF provided you with thirty days to respond
to the proposed debarment.                               -

       On or a b o u t - , you filed a timely response to the Notice. In this response, you
conveyed remorse for your actions, did not contest the evidence contributing to your conviction,
and asked NSF for leniency. You suggested that you have already suffered a great deal and
debarment would be added punishment.

       I have considered the circumstances that you cite in your response, including your regret
and your personal acceptance of responsibility. In my view, however, such mitigating
circumstances do not outweigh, or counteract in any way, the significant misconduct in which
you engaged, which involved a clear lack of integrity on your part.

        For the foregoing reasons, I have concluded that you lack present responsibility. Thus, I
am issuing this Notice of Debarment. Accordingly, you are debarred u n t i l - . During
this period, you are precluded from receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with 2 CFR
 180.135. Non-procurement transactions include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified used, and donation agreements.
                                                                                          Page   2

       In addition, you are prohibited from receiving Federal contracts or approved subcontracts
under the Federal Acquisition Regulations at 48 CPR Subpart 9.4 for the period of this
debarment 2 CPR 180.925. During the debarment period, you may not have supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency ofthe Executive Branch of the Federal
Government

       If you have any questions regarding the foregoing, please c o n t a c t - ' Assistant
General Counsel, at (703) 292-8060.



                                                    Sincerely,




                                                    Fae Korsmo
                                                    Senior Advisor
AO 2458 (Rev. 09/ll)

  Sheet l- Judgment in a Crimina] Case



                                     United States District Court
                       UNITED STATES OF AMERICA
                                         v.                               JUDGMENT IN A CRIMINAL CASE

                                                                       CASE Nillv1BER:
                                                                          USM Number:
 THE DEFENDANT:
                                                                           Defendant's Attorney
  ~ pleaded guilty to count(s) one of a one-count information o n - - - - - - - - - ' - - - - - - - - - - - -
  0     pleaded nolo contendere to count(s) - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -
        which was accepted by t:IJ.e court.
      was found guilty on count(s)
  D   after a plea of not guilty
 The defendant is adjudicated guilty of these offenses:
                                                                                                          Date Offense   Count



                                                                                                          -
Title & Section                                 Nature of Offense                                         Concluded    Number(s)
!8 U.S.C. § 641                               Theft of Government Money                                                            One




     The defendant is sentenced as provided in pages 2 through               6    of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.

 0     The defendant has been found not guilty on count(s) - - - - - - - - - - - - - - - - - - - - - - - - -
 0     Count(s) _ _ _ _ _ _ _ _ _ _ _ __                                   dismissed on the motion of the United States.

It is ordered that the defendant must notifY the United States attorney for this district within 30 days of any change of name; residence, or
mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restitution, the defendant must notifY the court and United States attorney of material changes in economic circumstances.




                                                                                                   GIS1RA1E JUDGE
                                                                          Name & Title of Judge




                                                                          Date signed

  Rerord No.: 401.
 AO 145B (Rev. 09/11)   Judgment in Criminal Case   Sheet 4 -Probation

                                                                                                                                2_ of _6_ _
                                                                                                                Judgment-Page _ _




                                                      PROBATION
        The defendant is hereby sentenced to probation for a term of:
               I
  Two years




      The defendant shall not commit another federal, state, or local crime.

       The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
       controlled substance. The Defendant shall submit to one drug test within 15 days of placement on probation and at least two
       periodic drug tests thereafter, as determined by the court.

       ~      The above drug testing condition is suspended based on the court's determination that the defendant poses a low risk
              of future substance abuse. (Check, if applicable.)
       ~      The defendant shal! not possess a firearm , destructive device, or any other dangerous weapon. (Check, if applicable.)

      D       The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable)
      D      The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
             student, as directed by the probation officer. (Check, if applicable.)
      D      The Defendant shall participate in an approved program for domestic violence_ (Check, if applicable.)
    If this judgment imposes a fine or a restitution obligation, it is a condition of probation that the defendant pay in accordance with
    the Schedule of Payments sheet of this judgment.

    The defendant shall comply with the standard conditions that have been adopted by this court as well as with any additional conditions
    on the attached page.


                                      STANDARD CONDITIONS OF SUPERVISION
  1) the defendant shaJl not leave the judicial district without the permission of the court or probation officer;
 2) the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first
      five days of each month;
 3) the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
 4) the defendant shall support his or her dependents and meet other family responsibilities;
 5) the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
 acceptable reasons;
 6) the defendant shall notify the probation officer ten days prior to any change in residence or employment;
 7) the defendant shall refrain from excessive use of a !coho! and shall not purchas, possess, use, distribute, or administer any controlled
 substance or paraphernalia related to any controlled substances, except as prescribed by a physician:
 8) the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
 9) the defendant shall not associate with any persons engaged in criminal activity, and shall not associate with any person convicted
 of a felony unless granted permission to do so by the probation officer;                                              .
10) the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit
    confiscation of any contraband observed in plain view of the probation officer;
11) the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;

12) the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency
     without the permission of the court;
13) as directed by the probation officer, the defendant shalt notify third parties of risks that may be occasioned by the
     defendant's criminal record or personal history or characteristics, and shall permit the probation officer to make such .
     notifications and to confirm the defendant's compliance with such notification requirement.
AO 245B (Rev. 09/!1)   Judgment in Criminal Case   Sheet 4A   w   Proba1ion

                                                                                                           Judgment-Page     3       of   _6_ _




                                               ADDITIONAL PROBATION TERMS

The defendant shall perform 100 hours of community service as approved by the probation office.

The defendant shall participate in a mental health program approved by the probation office. The defendant shall pay for the costs
associated with services provided based on a co-payment fee established by the probation office.

The defendant shall provide the probation office and the Financial Litigation Unit (FLU) of the U.S. Attorney's Office access to any
requested financial information. The defendant is advised that the probation office may share financial information with FLU.

The defendant shall be prohibited from incurring new credit charges or opening additional lines of credit without the approval of the
probation office so long as there is a balance on the Court-imposed financial obligation.

The defendant shall apply all monies received from any anticipated and/or unexpected financial gains, including any income tax refunds,
inheritances, or judgments, to the outstanding Court-ordered financial obligation. The defendant shall immediately notifY the probation
office of the receipt of any indicated monies.

The defendant shall pay the fine as previously ordered by the Court.
AO 2458 (Rev_ 09/11)   Judgmem in Criminal Case   Sheel 5- Criminal Monetary Penallies

                                                                                                                       Judgment-Page   4     of_6_ _




 The defendant must pay the total criminal monetary penalties under the schedule of payments on sheet 6
                                                  Assessment                             Fine                                  Restitution

               Totals:                                $25.00                                      $2,500.00

 D      The determination of restitution is deferred until
        will be entered after such a determination.
                                                                                          An Amended Judgment in a Criminal Case (AO 245C)



 0      The defendant must make restitution (including community restitution) to the following payees in the amount listed below_
If the defendant makes a partial payment, each payee shall receive an approximately proportional payment unless specified
otherwise in the priority order or percentage payment column below. However, pursuant ot 18 U_S.C. 3664(i), all non federal
victims must be paid before the United States is paid.

Name of Payee                                                                            Total Loss"'       Restitution 0 rdered Priority or Percentage




0     Restitution amount ordered pursuant to plea agreement




D    The defendant must pay interest on restitution a:nd a fine of more than $2,500, unless the restitution or fine is paid in full
     before the fifteenth day after the date of the j-udgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on
     Sheet 6 may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

0    The court determined that the defendant does not have the ability to pay interest and it is ordered that:

                                                                     D                            D     restitution.
       D      The interest requirement is waived for the.                   fine
                                                  0            0     restitution is modified as follows:
       D      The interest requirement for the        fine




  *Findings for the total amount of losses are required under Chapters 109A, 110, !lOA, and ll3A of Title 18 for offenses
committed on or after September 13, 1994 but before April 23, 1996.
AO 245B (Rev. 0911 J)   Judgment in Criminal Case   Sheet 5A- Criminal Monetary Penalties

                                                                                                                 Judgment-Page      5    of   _6__




                        ADDITIONAL TERMS FOR CRIMINAL MONETARY PENALTIES
 All criminal monetary penalties are due in full immediately. The defendant shall satisfy this obligation by paying the full amount within 60
 days of sentencing. The defendant shall pay all criminal monetary penalties through the Clerk of Court. Until all criminal monetary
 penalties are paid in full, the defendant shall notify the Court and this district's United States Attorney's Office, Financial Litigation Unit, of
 any material changes in the defendant's economic circumstances that might affect the defendant's ability to pay criminal monetary
 penalties. The defendant shall notify this district's United States Attorney's Office, Financial Litigation Unit, of any change of mailing or
 residence address. that occurs while any portion of the criminal monetary penalties remains unpaid.
AO 2458 (Rev_ 09/11)     Judgment in Criminal Case       Sheet 6 -Schedule of Payments

                                                                                                                                                6_ of
                                                                                                                                Judgment-Page _ _           _6_ _




                                                              SCHEDULE OF PAYMENTS
          Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties shall be due as follows:

     A    r8] Lump sum payment of           525 oospccioiAssc.. mont       due immediately, balance due
                                    0    not later than                                       , or

                                    0    in accordance with            0     C,   0   D, or     0    E below; or   D   F below; or

  B      0     Payment to begin immediately (may be combined with                         0   C,     0     D, or   0    E below; or   0   F below; or
 CD           Payment in equal                       (e.g., equal, weekly, monthly, quarterly) installments of                              over a period of

              - - - - - - e.g., months or years), to commence                                         (e.g., 30 or 60 days) after the date of this judgment; or

 D       0    Payment in equal                   (e.g., equal, weekly, monthly, quarterly) installments of                       over a period of
                                 e.g., months or years), to commence                      (e.g., 30 or 60 days) after release from imprisonment to a
         term of supervision; or
E     0        Payment during the term of supervised release will commence within                      (e.g., 30 or 60 days) after Release from
               imprisonment. The court will set the payment plan based on ari assessment of the defendant's ability to pay at that time: or
 F    0         Special instructions regarding the payment of criminal monetary penalties:



  Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
  during the period of imprisonment. All criminal monetary penalty payments, except those payments made through the Bureau of Prisons'
  Inmate Financial Responsibility Program are made to the clerk of the court.

  The defendant will receive credit for all payments previously made toward any criminal monetary penalties imposed.




 D           Joint and Several
               Defendant and Co-defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
               and corresponding payee, if appropriate.




 0           The defendant shall pay the cost of prosecution.

 0           The defendant shall pay the following court cost(s):




D            The defendant shall forfeit the defendant's interest in the following property to the United States:




 Payments shall be applied in the following order: (I ) assessment; (2) restitution principal, (3) restitution interest, (4) fme principal,
 (S)fine interest (6) community restitution.(7) penalties, and (8) costs, including cost of prosecution and court costs.
